APPENDIX
APPENDIX A
18-905
UNITED STATES COURTS OF APPEALS
FOR THE SECOND CIRCUIT
Matthew J. Rosenwasser,
Plaintiff-Appellant,
v.
Fordham University, John Carroll, Head of
Security, Joseph McShane, President
Defendants-Appellees.
On Appeal from the United States District Court
for the Southern District of New York
Brief of Appellant Matthew J. Rosenwasser
Matthew J. Rosenwasser, Pro Se
PO Box 895
New York, NY 10163-0895
(646) 522-2506

- 11 -

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR
AFTER JANUARY 1, 2007, IS PERMITTED
AND IS GOVERNED BY FEDERAL RULE
OF APPELLATE PROCEDURE 32.1 AND THIS
COURT'S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION
"SUMMARY ORDER").
A PARTY CITING A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
7th day of May, two thousand nineteen.

- 24 -

PRESENT: BARRINGTON D. PARKER,
DENNY CHIN,
SUSAN L. CARNEY,
Circuit Judges.
- -x

MATTHEW J. ROSENWASSER,
Plaintiff-Appellant,
v. 18-905-cv
FORDHAM UNIVERSITY, JOHN CARROLL,
Head of Security, JOSEPH MCSHANE,
President,
Defendants-Appellees.
- -x

FOR PLAINTIFF-APPELLANT:
Matthew J. Rosenwasser, pro se, New York,
New York.
FOR DEFENDANTS-APPELLEES:
James Gerard Ryan, Cullen and Dykman LLP,
Garden City, New York.
Appeal from the United States District Court for
the Southern District of New York (Sullivan, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that
the judgment of the district court is AFFIRMED.

- 25 -

Plaintiff-appellant Matthew Rosenwasser,
proceeding pro se, appeals the district court's
judgment entered March 15, 2018, dismissing
his claims under 42 U.S.C. § 1983 and Title IX of
the Education Amendments of 1972, 20 U.S.C. §
1681 et seq., against defendants-appellees
Fordham University and its head of security and
president (collectively, "Fordham").
Rosenwasser's claims arise from events that
occurred in May 2010 when Fordham banned
Rosenwasser from its campus after a
security guard complained that he had harassed
her.
1 On June 11, 2011, Rosenwasser
commenced an action in state court against
Fordham based on the May 2010 events.
The state court dismissed all but one of
Rosenwasser's claims on Fordham's motion to
dismiss and dismissed the final claim on
summary judgment on May 12, 2017. Two
months after the state court's May 2017 decision,
Rosenwasser filed the current action below,
alleging similar, if not identical, claims to those
raised in the state court. By order entered
March 14, 2018, the district court granted
Fordham's motion to dismiss, holding that
Rosenwasser's federal claims were untimely.
We assume the parties familiarity with the
underlying facts, procedural history of the case,
and issues on appeal.

-26-

We review de novo the dismissal of a complaint
pursuant to Federal Rule of Civil Procedure
12(b)(6), "construing the complaint liberally,
accepting all factual allegations in the complaint
as true, and drawing all reasonable inferences in
the plaintiffs favor." Chambers, 282 F.3d at
152; see also City of Pontiac Gen. Emps.' Ret.
Sys. v. MBIA, Inc., 637 F.3d 169, 173 (2d Cir.
2011) (reviewing district court's interpretation
and application of statute of limitations at
pleadings stage de novo). The complaint
must plead "enough facts to state a claim to
relief that is plausible on its face," Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007), and
to "allowQ the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged," Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). We construe pro se complaints
liberally to raise the strongest claims they
suggest, Triestman v. Fed. Bureau of Prisons,
470 F.3d 471, 474 (2d Cir. 2006) (per curiam),
but we "cannot read into pro se submissions
claims that are not consistent with the pro se
litigant's allegations, or arguments that the
submissions themselves do not suggest," id. at
477 (internal quotation marks and citation
omitted). As an initial matter, Rosenwasser does
not raise on appeal his primary argument in the
district court that the three-year statute of
limitations on his federal

- 27 -

claims was tolled while he litigated in state court
from June 2011 to May 2017.2
Therefore, we deem the argument abandoned.
See LoSacco v. City of Middletown, 71
F.3d 88, 92-93 (2d Cir. 1995) (noting that,
despite the special solicitude afforded to them,
pro se appellants abandon issues not presented
in their appellate briefs, especially when
they raised them below and elected not to pursue
them on appeal).
Instead, Rosenwasser argues that the statute of
limitations was equitably tolled based on three
additional grounds. These grounds, however,
were neither alleged in his pleadings nor raised
in the district court, and therefore they are
waived and cannot be raised at this juncture for
the first time. See Morse v. Univ. of Vt., 973
F.2d 122, 125 (2d Cir. 1992) (declining to address
appellant's equitable tolling argument that
was not raised in the district court); Greene v.
United States, 13 F.3d 577, 586 (2d Cir.
1994) ("[I]t is a well-established general rule that
an appellate court will not consider an
issue raised for the first time on appeal.").
Even assuming Rosenwasser did not waive these
arguments, we conclude that he failed to present
"rare and exceptional circumstances" warranting
equitable tolling. Walker v. Jastremski, 430
F.3d 560, 564 (2d Cir. 2005) (noting that we will
apply equitable tolling where "extraordinary
circumstances prevented a party from timely

-28-

performing a required act, and . . . the party
acted with reasonable diligence throughout
the period he sought to toll" (internal quotation
marks and alterations omitted)). First,
Rosenwasser argues that Fordham misled him
as to the proper cause of action by labeling the
security guard's complaint as "harassment" -instead of "sexual harassment" -- to avoid
triggering Title IX. This assertion is unavailing
because, even if the allegations were mislabeled,
Rosenwasser was aware of the facts underlying
the security guard's complaint. Second,
Rosenwasser contends that Fordham prevented
him from exercising his rights by refusing to
conduct a Title IX investigation. The fact that
Rosenwasser did not "discover!] the existence of
Title IX" until "after years of legal
research," Appellant's Reply Br. at 8, however, is
of no moment because ignorance of the law is not
sufficient to justify equitable tolling. See
Ormiston v. Nelson, 117 F.3d 69, 72 n.5 (2d Cir.
1997). Finally, Rosenwasser's claim that he
timely filed his complaint but in the wrong
forum is similarly meritless because New York
state courts have concurrent jurisdiction with
federal courts over Title IX and § 1983 claims
and thus these claims could have been brought
in his state court action. See Town of
Orangetown v. Magee, 88 N.Y.2d 41 (1996)
(adjudicating § 1983 claim in state court);

- 29 -

In re Mularadelis v. Haldane Cent. Sch. Bd.,
427 N.Y.S.2d 458 (2d Dep't 1980) (adjudicating
Title IX claim in state court). Therefore,
Rossenwasser's reasons for delay do not support
equitable Tolling.
We have considered Rosenwasser's remaining
arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the
district court.
FOR THE COURT:
s/ Catherine O'Hagan Wolfe
Catherine O'Hagan Wolfe,
Clerk of Court

- 30 -

APPENDIX C
No. 17-cv-5191 (RJS)
ORDER
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Matthew J. Rosenwasser,
Plaintiff-Appellant,
v.
Fordham University, et al.
Defendants

- 31 -

RICHARD J. SULLIVAN. District Judge
Plaintiff Matthew Rosenwasser,
proceeding pro se, brings this action against
Fordham University, that institution’s head of
security, John Carroll and its President, Joesph
McShane, alleging violations of 20 U.S.C. § 1681
and his due process rights under the Fifth and
Fourteenth Amendments pursuant to 42 U.S.C. §
1983 (“Section 1983”). (Doc. No 1 (“Compl.”).)
Now before the Court is Defendants’ motion to
dismiss the complaint on a variety of grounds.
(Doc. No 14.) For the reasons set forth below,
Defendants’ motion is granted.
I. BACKGROUND
This dispute arises from Fordham
University’s decision to bar Plaintiff from its
premises for an indefinite period of time after a
university security guard complained that
Plaintiff engaged in harassing behavior towards
her when he visited campus. (Compl. At 5; Doc.
No 15-1 at 26-27.) Specifically, Plaintiff alleges
that on or about May 17, 2010, while he was
using a computer in the Fordham University
library, he was approached by a security
supervisor and two security guards who
demanded that he leave the premises. (Doc. No.
15-1 at 14.) Plaintiff further alleges that he was
forcibly removed to the supervisor’s office, was
“interrogated” by the security staff without
having received a list of the allegations levied
against him by the complaining security guard,
and that, on May 21, 2010, he was permanently
- 32 -

Banned from Fordham University’s campus. (Id.
at 15.)
On June 11, 2011, Plaintiff commenced an
action in state court alleging a slew of claims
against Fordham University and other
individual defendants. (Id. At 23.) All but one of
Plaintiffs claims were dismissed upon the
University’s pre-answer motion to dismiss. (Doc.
No. 15 at 3.) On May 12, 2017, after years of
protracted discovery, the state court granted
summary judgement to the University on
Plaintiffs single remaining claim. (Id.; Doc. No
15-1 at 25.) This case, which appears to be
identical in almost every respect to Plaintiffs
state-court action, was filed two months after the
state court’s decision to grant summary
judgement to the defendants in that action.
II. DISCUSSION
Defendants advance a host of reasons why
this case must be dismissed, including that
Plaintiffs claims are time-barred by the
applicable statute of limitations; that the
complaint fails to state a claim under Fed. R Civ.
P. 12(b)(6); that Plaintiffs Title IX claims are
barred by res judicata because they were already
litigated in New York State court; that Plaintiffs
claims against the individual defendants must
be dismissed because there is no individual
liability under Title IX; and that Plaintiff is a
non-student who lacks standing to assert Title
IX claims against Fordham. (Doc. No. 15 at 4.)
Although several of these theories would justify
dismissal of Plaintiffs complaint, the Court
- 33 -

Need only to refer to the applicable statute of
limitations to conclude that Plaintiff s claims
must be dismissed because they are all timebarred.
Although time bar is ordinarily an
affirmative defense that must be asserted and
demonstrated by the defendants, dismissal is
appropriate on a motion to dismiss “if a
complaint clearly shows the claim is out of time.”
Harris u. City of New York, 186 F.3d 243, 250
(2d Cir. 1999). When a federal law lacks a
statute of limitations, courts “borrow” a
limitation period from an analogous state
statute. See Bd. of Regents of Uniu. of State of
N.Y. v. Tomanio, 446 U.S. 478, 483-484 (1980).
Applying that logic, courts have long held that
both Section 1983 and Title IX claims are subject
to New York State’s three-year statute of
limitations for personal injury actions. See, e.g.,
Ortega v. Arnold, No. 13-CV-9155 (RJS), 2016 WL
1117585, at *3 (S.D.N.Y. Mar 21, 2016) (§ 1983
claims); Twersky u. Yeshiva Univ., 993 F. Supp.
2D 429, 437 (S.D.N.Y. 2014) (Title IX claims); see
also N.Y.C.P.L.R § 214(5). As for when the
statute of limitations begins to run, the law
likewise clear that courts must look “to federal
common law to determine the time at which [a]
plaintiffs federal claim accrues.” Guilbert v.
Gardner, 480 F.3d 140, 149 (2d Cir. 2007).
“Under federal law, a claim accrues when the
plaintiff ‘knows or has reason to know’ of the
injury that is the basis of the action.”
- 34-

Morse u. Univ. ofVt., 973 F.2d 122, 125 (2d Cir.
1992) (quoting Cullen v. Margiotta, 811 F.2d
698, 725 (2d Cir. 1987)).
Here, all of the allegedly injurious conduct
set forth in the complaint occurred in May 2010,
more than seven years before Plaintiff filed hi
complaint in this case. (Doc. Nos. 1, 15-1.) Since
there is no suggestion that Plaintiff was
unaware of the alleged injuries when they
occurred, his claims all accrued at that time. In
addition, the statute of limitations for this action
was not tolled while Plaintiff litigated in state
court. See Bd. Of Regents of Univ. State of N. Y.
v. Tomanio, 446 U.S. 478, 486-87 (1980) (“No
section of [New York tolling] law provides...that
the time for filing a cause of action is tolled
during the period in which a litigant pursues a
related, but independent cause of action.”) ; see
also Tuckett v. Police Dep't of City of New York,
708 F. Supp. 77, 78 (S.D.N.Y. 1989).
Accordingly, the Court grants Defendants'
motion to dismiss in light of its conclusions that
(1) all of Plaintiffs claims are subject to a threeyear statute of limitations, and (2) all of the
conduct alleged to support Plaintiffs claims
occurred in May 2010.
Finally, although Plaintiff has not yet
requested leave to amend his complaint, the
Court nevertheless finds that leave to amend
would be inappropriate in this case. To be sure,
the Second Circuit has cautioned district courts
not to “dimiss [a pro se complaint] without
granting
- 35 -

Leave to amend at least once when a liberal
reading of the complaint gives any indication
that a valid claim might be stated.” Cuoco v.
Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000)
(citation omitted). Even so, a court may dismiss
a pro se complaint without leave to re-plead
“when amendment would be futile.” Tocker v.
Philip Morris Cos., Inc., 470 F.3d 481, 491 (2d
Cir. 2006) (citing Ellis v. Chao, 336 F.3d 114,
127 (2d Cir. 2003)). In this case, the Court
concludes that any attempt at amendment would
be futile in light of the applicable statutes of
limitations, which expired nearly five years ago.
III. CONCLUSION
For the reasons set forth above,
Defendants' motion to dismiss is GRANTED.
Accordingly, the Clerk of the Court is
respectfully directed to mail a copy of this Order
to Plaintiff, to terminate the motion pending at
docket number 15, and to close this case.
SO ORDERED.
Dated:
March 13, 2018
New York, New York
/s Richard J. Sullivan
RICHARD J. SULLIVAN
UNITED STATES DISTRICT JUDGE

- 36 -

APPENDIX D
UINTED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a Stated Term of the United States
Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of New
York, on the 19th the 19th day of June, two
thousand and nineteen,
BARRINGTON D. PARKER,
Before:

DENNY CHIN,
SUSAN L. CARNEY,
Circuit Judges.
Matthew J. Rosenwasser,
ORDER
Docket No 18-905
Plaintiff - Appellant,
v.
Fordham University, John Carroll, Head of
Security,
Joseph McShane, President,
Defendants - Appellees.
Appellant, Matthew J. Rosenwasser,
having filed a petition for panel rehearing and
the panel that determined the appeal having
considered the request,
IT IS HEREBY ORDERED that the
petition is DENIED.
For The Court:
s/ Catherine O'Hagan Wolfe
Catherine O'Hagan Wolfe,
Clerk of Court
- 37 -

